NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL
                   OIG REPORT TO OMB ON THE
             NATIONAL CREDIT UNION ADMINISTRATION’S
                      COMPLIANCE WITH THE
                 FEDERAL INFORMATION SECURITY
                       MANAGEMENT ACT
                             2004

             Report #OIG-04-06               September 30, 2004




                                  Herbert S. Yolles
                                 Inspector General


        Released By:                            Auditor-in-Charge:



 William A. DeSarno                             Tammy F. Rapp, CPA, CISA
 Deputy Inspector General for Audits            Sr. Information Technology Auditor
                       REPORT TO OMB ON NCUA’S COMPLIANCE WITH THE
                    FEDERAL INFORMATION SECURITY MANAGEMENT ACT - 2004
                                     Report # OIG-04-06

                                     TABLE OF CONTENTS




Section                                                                               Page

    I        Executive Summary                                                          i

    II       Office of Management & Budget Report Format                                1

Exhibits

    A        Independent Evaluation of the NCUA Information Security Program - 2004

    B        NCUA Financial Statement Audits – 2003
                  FY03 Information Technology Controls Review




Note: Exhibits transmittal separately and restricted for official use only.
                    REPORT TO OMB ON NCUA’S COMPLIANCE WITH THE
                 FEDERAL INFORMATION SECURITY MANAGEMENT ACT - 2004
                                  Report # OIG-04-06

                              I. EXECUTIVE SUMMARY
The Office of Inspector General (OIG) for the National Credit Union Administration (NCUA)
engaged Cotton & Company LLP to conduct an independent evaluation of NCUA’s information
systems (IS) and security program and controls for compliance with the Federal Information
Security Management Act (FISMA), Title III of the E-Government Act of 2002.

The Office of Management & Budget (OMB) issued 2004 Guidance on Annual Information
Technology Security Reports on August 23, 2004. This guidance provides clarification to
agencies for implementing, meeting, and reporting FISMA requirements to OMB and the
Congress. This report contains a summary of our evaluation of the NCUA’s information security
program and is presented in the OMB prescribed format.

The OIG issued two reports during the past year that reported on the testing of the effectiveness
of information security and internal controls:

   •   On September 30, 2004, the OIG issued a report containing an Independent Evaluation
       of the NCUA’s Information Security Program – 2004. The content of the independent
       evaluation report supports the conclusions presented in this report. Refer to Exhibit A
       for the complete independent evaluation.

   •   On March 31, 2004, the OIG issued the Financial Statement Audit Report for the year
       ended December 31, 2003. The purpose of this audit was to express an opinion on
       whether the financial statements were fairly presented. In addition, the internal control
       structure was reviewed and an evaluation of compliance with laws and regulations was
       performed as part of the audit. The result of this audit was an unqualified opinion,
       stating that the financial statements were presented fairly. Although there were no
       material weaknesses identified during the review of the internal control structures
       pertinent to financial report, nine recommendations were made relating to weaknesses in
       the area of information security. Refer to Exhibit B for the Information Technology
       Controls Review report.

The Chief Information Officer (CIO) has made progress during the past year to improve NCUA's
IT infrastructure. During 2004, NCUA accomplished the following:

       •      Completed an interim certification and accreditation of their general support
              system;
       •      Completed and updated several security plans and risk assessments; and
       •      Identified and reported 114 weaknesses in the NCUA Plans of Action and
              Milestones (POA&M) report. Of the 114 items, 60 were completed, 38 have
              milestones or completion dates that are due after the FISMA report date, 8 were
              delayed, the OCIO made risk based decisions to accept risk on 6, and 2 were
              identified as significant deficiencies for this year’s FISMA reporting cycle.

However, two significant deficiencies concerning NCUA’s security program carried over from
last year’s independent evaluation still have not been fully addressed. First, we determined
that information stored on examiners’ laptop computers has not been addressed as part of
NCUA’s information security program. We’ve noted that NCUA has taken some measures to
protect information on examiners laptops. However, a formal review of the risks involved and
protections necessary to address these risks has not been conducted. This could result in the
intentional or accidental release of credit union member information.

                                                i
                    REPORT TO OMB ON NCUA’S COMPLIANCE WITH THE
                 FEDERAL INFORMATION SECURITY MANAGEMENT ACT - 2004
                                  Report # OIG-04-06


Second, we noted several weaknesses related to the underlying general support systems and
network components. This is significant because every application relies on the security of the
operating system and network infrastructure on which it resides. Prevention of unauthorized
access is necessary to ensure infrastructure security. Therefore if the underlying operating
systems and network components are not secure, then the applications themselves cannot be
assured of being secure. NCUA’s general support system is operating under an interim
accreditation based on several weaknesses identified during the formal certification process. As
of the ending date of fieldwork, the general support system is operating at medium to high risk
because NCUA has not corrected or accepted risk on weaknesses identified during the interim
certification.

While we noted other weaknesses in IT controls, we concluded the two conditions described
above are the most significant to NCUA. Additionally, both of these conditions were reported in
last year’s FISMA review as material weaknesses. We encourage NCUA’s Executive Director,
the Director of the Office of Examination and Insurance, and the CIO to address these issues as
soon as possible.




                                             ii
